AUDIT OF THE IMPLEMENTATION OF CORRECTIVE ACTIONS




                Audit Report No. 00-019
                     May 25, 2000




               OFFICE OF AUDITS

         OFFICE OF INSPECTOR GENERAL
Federal Deposit Insurance Corporation                                                            Office of Audits
Washington, D.C. 20434                                                               Office of Inspector General



   DATE:            May 25, 2000

   TO:              Vijay Deshpande
                    Director, Office of Internal Control Management


   FROM:            David H. Loewenstein
                    Assistant Inspector General

   SUBJECT:         Report Entitled Audit of the Implementation of Corrective Actions
                    (Audit Report No. 00-019)

   The Office of Inspector General (OIG) has completed an audit of the Federal Deposit Insurance
   Corporation's (FDIC) implementation of corrective actions. Corrective actions originated from
   recommendations in OIG audit and evaluation reports. The audit covered agreed-upon corrective
   actions for which final action occurred from January 1, 1998 through June 30, 1999. The audit also
   covered collections of disallowed costs from audit and evaluation reports issued during this period.


   BACKGROUND

   Audit follow-up is an integral part of good management and is a shared responsibility of
   corporate management officials, the Office of Internal Control Management (OICM), and the Office
   of Inspector General. Corrective action taken by management on resolved findings and
   recommendations is essential to improving the effectiveness of FDIC operations. Corrective action is
   completed when final action has occurred. Final action means the completion of all actions that
   management has concluded are necessary with respect to the findings and recommendations included
   in an audit or evaluation report.

    When the OIG issues an audit or evaluation report including findings and recommendations, FDIC
    management responds with a management decision on the report's recommendations. Management's
    decision is the evaluation by management of the findings and recommendations and its response to
    such findings and recommendations, including actions concluded to be necessary together with the
    expected completion dates for their implementation. The OIG will concur with management's decision
    if it is to implement the recommended corrective action or an acceptable alternative corrective action.
    If any recommendation identifies specific monetary benefits, management will respond with the
    amount agreed with and/or the amount that is disagreed with and the reasons for any disagreement.
    The amount management agrees to disallow is reported as the disallowed cost. Management will take
    actions necessary to recover disallowed costs unless management believes it is in the best interests of
    the FDIC to not pursue collection. Management reports the status of collections on disallowed costs
    to OICM, and when final action is to not pursue collection, the disallowed costs are reported as
    written off.
OICM has established the Internal Risks Information System (IRIS) as a tracking mechanism to
provide a complete record of action on findings and recommendations. Within OICM, the Audit
Follow-up and Resolution Section has been created as one means to help ensure the prompt and
proper resolution and implementation of audit recommendations. In addition to monitoring audit
follow-up and resolution activities, this section follows up on outstanding audit recommendations over
1 year old and assists in the resolution of disagreements between audit recommendations and
corrective action plans.


OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this audit was to determine whether FDIC management implemented the agreed-upon
corrective actions to audit and evaluation recommendations as reported in IRIS. We did not perform
tests to determine whether the actions taken were effective in correcting existing weaknesses but only
to verify that agreed upon corrective actions were implemented. The audit scope included disallowed
costs agreed to by management and recommendations for which final corrective action occurred from
January 1, 1998 through June 30, 1999. During this period, management reported final action on 261
recommendations related to 70 audit and evaluation reports, excluding legal fee bill audit reports.
Because the legal fee bill audits included only monetary recommendations, they were included only in
our review of disallowed costs.

Our audit methodology was to select a judgmental sample of 22 audit and evaluation reports from
which management reported final action on 85 recommendations during the audit period. We selected
our sample to include at least one report on each FDIC division that was the subject of an audit and to
select those reports involving the most significant corrective actions. We reviewed IRIS for each audit
report in our sample to identify the corrective actions completed by management. We then obtained
documentation from the Internal Control Liaison (ICL) from each division as necessary to determine
whether the corrective action had been completed as reported in IRIS. Where the documentation
provided by the ICL was not conclusive, we performed testing to verify completion of the corrective
action.

We also reviewed the status of collections on disallowed costs for all OIG audit and evaluation reports,
including legal fee bill audit reports, issued from January 1, 1998 through June 30, 1999. When
management wrote off disallowed costs, we reviewed documentation justifying the write-off.

We conducted the audit in accordance with generally accepted government auditing standards from
September 1999 through March 2000.




                                                   2
RESULTS OF AUDIT

Our review found that management has been responsive to implementing agreed-upon corrective
actions. Documentation provided by the ICL and additional testing performed during the audit
confirmed information provided in IRIS for each corrective action reviewed in the audit sample. For
each of the corrective actions, we found that management's efforts related to the corrective action
addressed the agreed upon corrective action. Table 1 lists the number of audit reports and closed
corrective actions in our sample by division.


                                                      Table 1


                             a                                         Closed Corrective
          Division/Office            Audit Reports
                                                                              Actions
          DIRM                            4                                   21
          DOA                             5                                   19
          DOF                             1                                    2
          DOS                             2                                    3
          DRR                             5                                   22
          LEGAL                           1                                    2
          ODEO                            1                                    1
          OES                             1                                    8
          OLA                             1                                    4
          DCA                             1                                    3
          TOTAL                          22                                  85
         Source: OIG Analysis

FDIC management also initiated efforts to collect disallowed costs and involved the Legal Division
when initial collection efforts failed. We found that management justified disallowed costs written off
by documenting the write-off and including a litigation risk analysis where appropriate. Table 2
summarizes the status of disallowed costs by division.



a
 The divisions and offices covered by our review were the Division of Information Resources Management (DIRM),
Division of Administration (DOA), Division of Finance (DOF), Division of Supervision (DOS), Division of Resolutions
and Receiverships (DRR), Legal Division (Legal), Office of Diversity and Economic Opportunity (ODEO), Office of the
Executive Secretary (OES), Office of Legislative Affairs (OLA), and Division of Compliance and Consumer Affairs
(DCA).
                                                         3
                                                      Table 2


                       Disallowed                                    In Process of       Costs Written
          Division                         Costs Recovered
                          Costs                                       Collection              Off
         LEGAL           $ 4,048,391              $ 1,827,610           $ 352,122            $ 1,868,659
         DRR*              3,973,972                 1,130,475            2,705,297               254,794
         DOA               6,699,443                      9,243           6,690,200                       0
         DIRM                 293,621                  170,007                       0            123,614
         TOTAL          $15,015,427               $ 3,137,335           $ 9,747,619          $ 2,247,067
       Source: OIG Analysis

       * DRR recovered $116,594 in additional costs over the original disallowed costs after issuance of the final audit
       report based on procedures recommended in the OIG audit report.



Disallowed costs by the Legal Division related to 63 audits of outside counsel. Of the $1,868,659
written off, the Legal Division did not pursue collection of $593,442 because a law firm that had
formerly provided legal services to the FDIC had entered bankruptcy. The remaining amounts were
primarily based on legal analyses that litigation would not be cost effective. Disallowed costs by the
Division of Resolutions and Receiverships related to 14 audits of asset management and liquidation
activities. Of the $254,794 written off, $163,705 was not collected because a contractor went out of
business. The majority of costs disallowed by the Division of Administration relate to three billing
audits of a contractor. Collections are in process due to an ongoing OIG investigation and litigation
analysis. The $123,614 written off by the Division of Information Resource Management (DIRM)
related to a billing audit of a computer systems contractor. DIRM negotiated a settlement and release
agreement in order to collect the majority of the disallowed costs. All disallowed costs we tested were
adequately documented and reported to OICM.

Because we found no significant areas of weakness in FDIC management's implementation of
corrective actions, we are making no recommendations in this report.




                                                          4
